                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL
                     OFFICE OF AUDIT SERVICES




                 AUDIT OF THE DEPARTMENT OF ENERGY

        PROGRAM OFFICES' USE OF MANAGEMENT AND OPERATING

                       CONTRACTOR EMPLOYEES


 The Office of Inspector General wants to make the distrution of
 its reports as customer friendly and cost effective as possible.
 Therefore, this report will be available electronically through the
 Internet five to seven days after publication at the following addresses:

             Department of energy Headquarters Gopher
                         gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

     Department of Energy Human Resources and Administration
                            Home Page
               http://www.hr.doe.gov/refshelf.html

  Your comments would be appreciated and can be provided on the
  Customer Response Form attached to this report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report No.   DOE/IG-0392                      Eastern Regional
                                              Audit Office
Date of Issue:   July 1996                    Oak Ridge, TN 37830




United States Government
Department of Energy
memorandum
Date: July 8, 1996
reply to
 attn of:     IG-1

subject:      INFORMATION: Report on lAudit of the Department of
                       Energy Program Officesm Use of Management
                       and Operating Contractor Employeesn

     to:    The Secretary


BACKGROUND:

The Department of Energy (Department) and predecessor agencies
established program offices at Headquarters to administer
mission responsibilities in areas such as defense programs,
energy efficiency and renewable energy, environmental
management, energy research, and national security. These
program offices relied on several hundred employees from the
Departmentms management and operating contractors, especially
Department laboratories, to perform a variety of functions to
meet mission objectives. The purpose of the audit was to review
the activities of management and operating contractor employee
(laboratory employee) support provided directly to Department
program offices located in the Washington, D.C. area for periods
of six months or longer. The objective of the audit was to
assess the nature and extent of support provided by laboratory
employees assigned.

DISCUSSION:

The Office of Inspector General performed audit work at several
of the Departmentms laboratories, including those located at
Argonne, Brookhaven, Lawrence Livermore, Los Alamos, and Pacific
Northwest. In addition, we performed audit work at program
offices located in the Washington, D.C. area, including the
Offices of Energy Research, Defense Programs, Nonproliferation
and National Security, Energy Efficiency and Renewable Energy,
and Environmental Restoration and Waste Management.

The audit disclosed that 378 laboratory employees were assigned
to the Washington, D.C. area for periods of six months or
longer, at least 220 of whom provided a wide range of
administrative and technical support services directly to
program offices. In addition, these employees worked on
projects which have the potential to impact their laboratory
employers. The audit found that the Department did not clearly
define the proper use of laboratory employees and had not
established a system to periodically review their proper usage.
Further, the Department was not fully aware of the magnitude of
reliance on laboratory employee support or the associated cost
implications. As a result, (i) laboratory contract employees
were involved in programmatic and policy arenas in which real or
perceived conflicts may exist between their official duties and
the tasks they assume when serving the Department program
offices, and (ii) the Department may be augmenting its federal
workforce in a way that might not be cost-effective and
consistent with its staffing objectives.

After completion of our field work, in its implementation of
Strategic Alignment Initiative-37, "Reducing Support Service
Contracting," the Department began efforts to identify
laboratory employee support in order to eliminate management and
administrative support services provided by laboratory
employees. The Department sent a memorandum to all program
offices requiring an inventory of laboratory employees providing
support to Departmental elements in controlling tasks they
performed. A report of that inventory has been provided to
senior Departmental officials, with recommendations for better
management oversight in the future.

Given the current levels of program office dependence on
laboratory employee support, we believe the Department should
establish universal policies regarding the use of this support.
The report recommended that the Department: (1) define
activities that may be performed by laboratory employees; (2)
develop a system to monitor placement of laboratory employees
within Department program offices; and (3) evaluate the
budgetary impacts of continuing support by laboratory employees.

Management is in general agreement with the findings.



                                          (Signed)

                                 John C. Layton
                                 Inspector General


Attachment

cc:     Deputy Secretary
        Under Secretary


       AUDIT OF THE DEPARTMENT OF ENERGY PROGRAM OFFICESm
      USE OF MANAGEMENT AND OPERATING CONTRACTOR EMPLOYEES


                           TABLE OF CONTENTS



                                                              Page

SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PART I -- APPROACH AND OVERVIEW     . . . . . . . . . .   . . . 3

Introduction   . . . . .    . . . . . . . . . . . . . . .. . . 3

Scope and Methodology . . . . . . . . . . . . . . . . . . . 3
Background   . . . . . . . . . . . . . . . . . . . . . . . . 4

PART II   --
FINDING AND RECOMMENDATIONS    . . . . . . . . . . . . . . . 6

Reliance on Management and Operating Contractor
   Employee Support . . . . . . . . . . . . . . . . . . .    6

PART III --
MANAGEMENT AND AUDITOR COMMENTS . . .   . . . . . . . . . . 14
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES


       AUDIT OF THE DEPARTMENT OF ENERGY PROGRAM OFFICES'
      USE OF MANAGEMENT AND OPERATING CONTRACTOR EMPLOYEES


Audit Report Number:   DOE/IG-0392

                              SUMMARY

     It is Department of Energy (Department) policy that
management and operating contractor laboratory employees
(laboratory employees) not be placed in positions where
conflicts may occur, or be perceived to occur, between the
interests of the Department and those of the laboratory
employer. Accordingly, the objective of this audit was to
assess the nature and extent of support provided by laboratory
employees assigned to Headquarters program offices.

     We found that 378 laboratory employees were assigned to the
Washington, D.C. area for periods of six months or longer, at
least 220 of whom provided a wide range of administrative and
technical support services directly to program offices. In
addition, these employees worked on projects which have the
potential to impact their laboratory employers. These
conditions occurred because the Department had not clearly
defined the proper use of laboratory employees and had not
established a system to periodically review their proper usage.
Further, the Department was not fully aware of the magnitude of
reliance on laboratory employee support or the associated cost
implications. As a result, (i) laboratory contract employees
were involved in programmatic and policy arenas in which real or
perceived conflicts may exist between their official duties and
the tasks they assume when serving the Department program
offices, and
(ii) the Department may be augmenting its federal workforce in a
way that might not be cost-effective and consistent with its
staffing objectives.

     After completion of our field work, in its implementation
of Strategic Alignment Initiative-37, "Reducing Support Service
Contracting," the Department began efforts to identify
laboratory employee support in order to eliminate management and
administrative support services provided by laboratory
employees. The Department sent a memorandum to all program
offices requiring an inventory of laboratory employees providing
support to Departmental elements in controlling tasks they
performed. A report of that inventory has been provided to
senior Departmental officials, with recommendations for better
management oversight in the future.

     Given the current levels of program office dependence on
laboratory employee support, we believe the Department should
establish universal policies regarding the use of this support.
Specifically, we recommended that the Department: (1) define
activities that may be performed by laboratory employees; (2)
develop a system to monitor placement of laboratory employees
within Department program offices; and (3) evaluate the
budgetary impacts of continuing support by laboratory employees.




                                          (Signed)
                                          Office of Inspector General

                               PART I

                        APPROACH AND OVERVIEW


INTRODUCTION

     The Department of Energy (Department) and predecessor
agencies established several program offices at Headquarters to
administer mission responsibilities in areas such as defense
programs, energy efficiency and renewable energy, environmental
management, energy research, and national security. These
program offices had relied on several hundred employees from the
Departmentms management and operating contractors, especially
Department laboratories, to perform a variety of functions to
meet mission objectives.

     The purpose of the audit was to review the activities of
management and operating contractor employee (laboratory
employee) support provided directly to Department program
offices located in the Washington, D.C. area for periods of six
months or longer. The objective of the audit was to assess the
nature and extent of support provided by laboratory employees
assigned to Headquarters program offices.


SCOPE AND METHODOLOGY

     We performed audit field work from May through September
1995, at a variety of Departmental locations. Specifically, we
performed audit work at several of the Departmentms
laboratories, including those located at Argonne, Brookhaven,
Lawrence Livermore, Los Alamos, and Pacific Northwest. In
addition, we performed audit work at program offices located in
the Washington, D.C. area, including the Offices of Energy
Research, Defense Programs, Nonproliferation and National
Security, Energy Efficiency and Renewable Energy, and
Environmental Restoration and Waste Management. Furthermore, we
obtained information about, and discussed activities concerning
laboratory employee support provided by other Department
facilities.

     Our audit included the following methodologies applied to
the laboratories and the program offices. During the audit, we:
     * Identified and reviewed various criteria regarding the
       limitations of the use of laboratory employees, including
       limitations to make decisions concerning the establishment,
       management and evaluation of programs, priorities, and policies
       of the Department;

     * Based on data provided by selected laboratories and
       Department program management, identified 378 laboratory
       employees assigned to work in the Washington, D.C. area for a
       minimum of 6 months, at least 220 of whom provided direct
       support to Department program offices;

     * Interviewed 34 of the laboratory employees identified to
       ascertain the tasks they performed;

     * Interviewed 21 federal employees from various program
       offices to determine the extent of support obtained from
       laboratory employees; and,

     * Reviewed documents concerning tasks performed, as well as
       samples of documents prepared by laboratory employees providing
       support to Department program offices.

     This audit addressed employees of the Department's
management and operating contractors. That is, we excluded
support service contract personnel from our analysis. Since
almost all management and operating contractor employees were
from one of the Departmentms major laboratories, we refer herein
to these employees as llaboratory employees.n

     We performed the audit in accordance with generally
accepted Government auditing standards for performance audits
and included tests of internal controls and compliance with laws
and regulations to the extent necessary to satisfy the audit
objective.

     We did not identify any Departmental policies, procedures
or authorizations universal to the assignment of laboratory
employees to program offices. Therefore, we assessed control
risk at the maximum level and did not rely upon any internal
controls established concerning program office assignments.

     We discussed our finding with responsible Departmental
officials during the course of the audit and at an exit
conference on June 12, 1996.


BACKGROUND

     Since the beginning of the Federal Governmentms atomic
energy activities in the 1940s, the Department and its
predecessor agencies have relied upon the services of management
and operating contractors (contractors) to manage an extensive
complex of nuclear weapons research programs, production
facilities, and multi-program laboratories. Although these
facilities are Government-owned, they are operated by large
industrial corporations, non-profit entities, and academic
institutions. In 1995, the Department expended about $14.5
billion for operations conducted by its contractors.

      To carry out its mission, the Department has several
Headquarters program offices. Each has the responsibility to
manage a technical or scientific area, or business line, within
the Department, and provide technical and programmatic guidance
to the Departmentms contractors. Further, the Department
established regional operations offices and field offices which
have contract administration responsibilities for the
contractors. Over the past decade, the organizational
relationships between the contractors, the Departmental field
sites, the Headquarters program offices, and the Departmentms
senior executive staff have been in a state of almost continuous
transition. However, all the organizational relationships have
required an appropriate distinction between roles of federal
officials and the contractors.

     In a General Accounting Office (GAO) report entitled
"Government Contractors -- Are Service Contractors Performing
Inherently Governmental Functions?," issued in November, 1991,
GAO concluded that it was difficult to obtain a clear definition
of inherently governmental functions. As such, they relied on
basic principles, stating that, "the government should not
contract out its responsibilities to serve the public interest
or to exercise its sovereign powers." In further explanation,
GAO used as a key criterion for the appropriateness of service
contracts, the determination of "whether the government
maintains sufficient in-house capability to be thoroughly in
control of the policy and management functions of the agency."

     The GAO report identified that the Department "contracted
out for some activities that may have involved government
functions." However, due "to the difficulty in defining
governmental functions, [GAO was] unable to definitively
conclude that these activities involved such functions." GAO
attributed this to "the lack of authorized federal positions for
employees and the lack of federal employees with sufficient
expertise to do the work."
                             PART II

                   FINDING AND RECOMMENDATIONS


Reliance on Management and Operating Contractor Employee Support

     Department policy requires that contractor personnel,
including employees of the Departmentms laboratory management
contractors, not be placed in positions where conflicts may
occur, or be perceived to occur. However, we found that at
least 220 laboratory employees were interwoven with federal
employees at Department Headquarters and worked in programmatic
areas that could potentially impact their laboratory employers.
At the conclusion of the audit itself, the Department estimated
that it spent over $30 million per year for the use of the
laboratory employees. These employees provided a broad spectrum
of technical and administrative assistance to program offices
for periods of six months or longer. The Department had not
clearly defined the proper use of laboratory employees and did
not establish a system to periodically review the proper usage
of such personnel. Further, the Department was not fully aware
of the magnitude of reliance on laboratory employee support or
the associated cost implications. As a result, (i) laboratory
contractor employees were involved in programmatic and policy
arenas in which conflicts may exist between their laboratory
responsibilities and their assignments to the Departmentms
program offices; and, (ii) the Department may be augmenting its
federal workforce in a way which might not be cost-effective and
consistent with its staffing objectives.


RECOMMENDATIONS

     We recommend that the Assistant Secretary for Human
Resources and Administration:

*   Define activities that may be performed by laboratory employees;

*   Develop a system to monitor placement of laboratory employees
    within Department program offices; and,

*   Evaluate the budgetary impacts of continuing support by
    laboratory employees.


MANAGEMENT REACTION

     Management was in general agreement with the findings and
indicated its willingness to work with the Office of Inspector
General to take appropriate actions to manage the use of
management and operating contractor employees.

                       DETAILS OF FINDING

Independent Government Decisionmaking

     In this era of downsizing Government, one of the
Departmentms important challenges is to make effective use of
all available resources, including management and operating
contractorsm laboratory employees. In meeting this challenge,
the Department must ensure that its laboratory employees do not
perform, or give the appearance of performing, inherently
governmental functions, or are not placed in potential conflict
situations.

Inherently Governmental Activities

     It is federal policy that government actions result from
informed, independent judgments made by government officials.
Since the early days of the Federal Government, however, there
has been debate over which activities should be performed solely
by federal employees and which may be performed by private
sector (contractor) employees. Activities such as commanding
combat troops or determining federal program priorities or
budget requests represent inherently governmental functions,
and, consequently, must be performed by federal employees. On
the other hand, activities such as building maintenance and food
services are not inherently governmental functions, and thus may
be performed by contractor employees. Oftentimes, however, such
distinctions are not clear-cut.

     Existing guidance for federal officials provides a general
conceptual framework for addressing performance of inherently
governmental activities. Office of Management and Budget (OMB)
Policy Letter 92-1, "Inherently Governmental Functions," and OMB
Circular A-76, "Performance of Commercial Activities," for
example, discuss inherently governmental activities. Because
both pronouncements apply to the entire Executive Branch,
however, they are general in nature and do not legally define
which functions are inherently governmental. Consequently, each
executive agency must apply its own criteria as to what actions
constitute inherently governmental activities, while making sure
that its criteria conform to the intent of these two OMB
pronouncements.

     OMB Policy Letter 92-1 provides guidance addressing as
inherently governmental those activities which include:
determining agency policy; determining federal program
priorities or budget requests; directing and controlling federal
employees, or intelligence/counterintelligence operations; and
determining budget policy, guidance, and strategy. In addition,
the Policy Letter also indicates activities that are not
inherently governmental. These activities involve gathering
information or providing advice, opinions, recommendations, or
ideas to government officials who are ultimately responsible for
using this information to make decisions.

     OMB Circular A-76 also indicates governmental activities
are those that are "so intimately related to the public interest
as to mandate performance by government employees." The
Circular notes that these activities involve either 1)
exercising discretion in applying governmental authority, or 2)
using value judgments in making decisions for the Government.

     This general guidance on government functions is echoed in
the Federal Acquisition Regulation (FAR) Subpart 17.6,
"Management and Operating Contracts," section 17.603,
"Limitations," which are applicable to the Departmentms
management and operating contractors. While these contracts
allow considerable latitude for the laboratory employees to
operate Department facilities, they specifically prohibit these
employees from assuming the role of government officials. The
provisions set forth in Department contracts, for instance,
prohibit laboratory employees from: (1) determining basic
governmental policies, and (2) providing day-to-day staff or
management functions of the agency or of any of its elements.

Conflicting Interests

     The Department, which relies significantly on laboratory
support, has recognized that conflict situations can arise with
the use of contractor employees to support Department functions.
It has also acknowledged that it has the responsibility to
ensure that advice or assistance from laboratory employees is
unbiased, impartial, objective, and technically sound. For
example, Department guidance dealing with the use of support
service contractors stated that if a contractor performs
analyses and/or renders advice in drafting a product, the
Department shall take steps to ensure that the contractor will
not be, or appear to be, improperly influencing or promoting the
product. Procurement officials also advised that the principles
outlined in this guidance, which was a formal Department policy
until policy streamlining reform in May 1994, should be followed
by all program elements whenever possible.

Involvement of Laboratory Employees

     The audit disclosed that 378 laboratory employees were
assigned to the Washington, D.C. area, of which at least 220
employees were assigned to Departmental program offices and
provided a wide range of administrative and technical services.
These employees were collocated with federal employees,
oftentimes were assigned to Headquarters for periods of up to
two years, and sometimes worked on projects which could impact
their laboratory employers. In addition, some were involved in
providing day-to-day staff activities in the program offices.

Laboratory Employees Assigned to Department Program Offices

     At the time of our audit, the Department and the
laboratories we visited were able to identify 378 laboratory
employees who were assigned to Department work in the
Washington, D.C. area for periods of at least six months. The
Department did not have an inventory of all laboratory employees
who were assigned to work in the program offices. However, we
were able to compile this data from the laboratories and program
offices visited during the audit. A schedule of these employees
by their employing laboratories follows:


              Department Laboratory     Employees

                Pacific Northwest        146
                Argonne                  90
                Sandia                   36
                Los Alamos               35
                Lawrence Livermore       34
                Other Contractors        37
                Total                    378


     Of these employees, at least 220 provided technical and
administrative services directly to Department program offices.
(Data received on 158 laboratory employees was inconclusive; therefore,
we evaluated only 220 of the 378 laboratory employees.)
As indicated by the following table, most of the laboratory
employees identified to the program offices provided support to
the Offices of Nonproliferation and National Security, Defense
Programs, Environmental Management, Energy Research, and Energy
Efficiency. We also determined that 19 of the 220 laboratory
employees provided services to multiple program offices. In
addition, we received information from the laboratories that a
total of 14 laboratory employees worked in other program
offices.


               Program Office          Laboratory
                                       Employees
            Nonproliferation               64
            Defense Programs               58
            Environmental Management       36
            Energy Research                24
            Energy Efficiency               5
            Service of Multiple Offices    19
            Other Headquarters Offices     14
            Total                         220


     Laboratory personnel maintained a continuing presence
within the Department program offices. We evaluated the
circumstances surrounding 86 of the 220 employees assigned to
program offices and found that generally the assignments were of
a long-term duration. Specifically, for the 86 employees,
assignments ranged from 8 months to, in one case, 15 years, with
the average assignment being about 2 years. In addition,
laboratory employees were sometimes assigned to program offices
on a rotational basis; that is, when one laboratory employeems
assignment ended, another employee, normally from the same
laboratory, would become the replacement. These employees
worked in Departmental offices alongside program office
personnel or had space in buildings within close proximity to
the program offices.

     We concluded that the use of laboratory employees by the
program offices had become so pervasive that the offices were
dependent on their presence.

Fieldwork Assignments

     Laboratory employees provided administrative and technical
services, ranging from secretarial support to the position of
Director of the Office of Energy Intelligence. We found that
the vast majority of these positions were for technical support,
such as providing oversight and coordination of various
programs, including ecosystem research, satellite and
terrestrial communications, and serving on various task forces.
The following list of tasks taken from field work assignments is
illustrative of the range of involvement of laboratory
employees.

     An Argonne employee coordinated research and development
efforts with other governmental agencies. This employee
represented the Department for several years on an interagency
research coordinating committee. As a staff member for the
Committee on Environmental and Natural Resources Research of the
National Science and Technology Council, the Argonne employee
represented the Department in:

     * reviewing national and international research and
       development programs in earth and environmental sciences dealing
       with global environmental change;

     * assisting in interagency and intergovernmental planning and
       coordination of research and development programs in earth
       sciences;

     * identifying and defining research and development needs
       related to earth and environmental sciences;

     * assisting with the preparation of long-range research
       planning and budget planning documents for the overall national
       effort in earth and environmental sciences; and,

     * providing reviews, analyses, advice, and recommendations for
       national programs in earth and environmental sciences related to
       assessing humankindms impact on the global environment.

     Another Argonne employee was assigned to Energy Research to
assist the Department in the review and evaluation of programs.
Specifically, the field work proposalms description of work
included:

     *    monitoring university contracts;

     *    reviewing university proposals;

     *    assessing materials research needs appropriate to the
          Department's mission; and,

     *    assisting the Materials Sciences Division in reviewing
          programs and activities at other national laboratories.

     The Department assigned four laboratory employees, one from
Los Alamos and three from Pacific Northwest, to perform a
variety of activities. Field work proposals stated these
laboratory employees were lresponsible for program management
functionsn such as tracking laboratory and subcontractor
performances, milestones, schedules, and costs. Additionally,
they developed guidance for programmatic implementation
consistent with Department policy and prepared information
papers and briefings. These laboratory employees functioned as
laction officersn responsible for nuclear material protection,
nuclear material control and accounting cooperation with Russia,
the International Nuclear Analysis Program, United States-
International Atomic Energy Agency reporting requirements, and
safeguards implementation at Department sites.

     One laboratory employee led the development of a model
strategic communications plan for a program office which
involved bringing together more than 80 communications and
public practitioners from the Department, contractors, U.S.
corporations, and other state and federal agencies. The
employee was instrumental in the development of communication
products including testimony, speeches, press kits, editorial
boards, press releases, video tapes, and briefing books. This
laboratory employeems duties also included public presentations
about program office activities, building external support for
program office achievements, and being a liaison to key program
office supporters and constituents.

     A Lawrence Livermore employee coordinated activities for
the Department concerning the National Ignition Facility, a
planned fusion laser to be built at Livermore. This employee
served as a primary liaison between the Congress, the
Department, and the laboratory to coordinate National Ignition
Facility project activities. Tasks included coordinating
activities related to preparation of the Stockpile Stewardship
Programms Environmental Impact Statement required by the
National Environmental Policy Act; assistance in responding to
budget submission calls; as well as responding to inquiries from
executive and legislative offices. In addition, this employee
provided assistance in preparing and implementing project plans.

     One laboratory employee was in the residency program for
the Office of Defense Programs. Duties included providing
advice on production, budget and facilities of site operations;
participation in policy guidance for stockpile support and
industrial standards; liaison between Defense Programs and other
Department organizations; and participation in potential new
Headquarters initiatives with the facility where the employee
worked.

     These examples illustrate the activities of laboratory
employees.

Need for Departmental Criteria and Review

     The Department did not clearly define the proper use of
laboratory employees and did not establish a system to
periodically review this usage. Furthermore, Department-wide
criteria had not been developed to define which functions were
inherently governmental and could, therefore, only be performed
by federal employees. Also, Department-wide guidance on the use
of laboratory employees had not been developed, nor was a system
in place to track and monitor the work performed by laboratory
employees to ensure that they were not placed in conflict
situations.

     The Department was not fully aware of the magnitude of
reliance on laboratory employee support or the associated cost
implications. Interviews with managers in several program
offices during the course of the audit indicated that they did
not know the cost of laboratory employee support. After the end
of audit field work, the Department made efforts to determine
the total number of employees and funding cost per employee.
The Department requested the program offices provide a listing
of all laboratory employees supporting their particular office,
including total funding costs. The information received from
the program offices covered 220 laboratory employees, with total
costs in excess of $30 million. We concluded that the effort to
gather this data was a positive step which was indicative of the
Department's desire to become more involved in this process.

     In a November 1991 report on this subject, GAO recommended
that the OMB require that each agency, including the Department
of Energy, identify specific functions which should
appropriately be administered only by government employees.
Despite these recommendations, the Department did not have a
policy for identifying those specific functions to be solely
administered by government employees, nor had it designed a
system for tracking laboratory employees within the
organization.

     Department Response During the Audit

     During the course of the audit, the Department recognized
that the use of laboratory employees for support service
missions was a significant concern. This culminated in several
memoranda on this subject in September and October 1995,
including a September 22, 1995, memorandum from the Secretary of
Energy (Secretary) to all heads of Departmental elements. The
subject of the Secretary's memorandum was, "Prohibition of Use
of Management and Operating Contractors to Compensate for
Reduced Support Service Contracting." In this document, the
Secretary stated that the laboratory employees "shall not be
required, nor should they propose, to provide administrative or
management support services...."

     To better control the Departmentms use of laboratory
employees, in October 1995, the Office of Procurement and
Assistance Management undertook an inventory of external
assignments of laboratory employees. In one of the memoranda
issued, the Department made the following statement, which is
highly relevant to the subject of this audit report:

     An area of additional concern is the inappropriate
     use of management and operating contractor employees
     for the performance of inherently Governmental
     functions. Even when the services performed are of
     a type which may legitimately fall within the scope
     of a management and operating contract, the use of
     nongovernmental personnel to perform inherently
     Governmental functions, such as supervising Federal
     employees, is a violation of fundamental contracting
     principles. Such activities must be terminated
     immediately.

          At the end of our audit, Defense Programs responded
that it had developed and implemented a system to reduce
its number of details and ensure the appropriate use of
management and operating contractor personnel. This
included a centralized control and approval process,
laboratory/M&O guidelines, and FY 1996 end of year
targets. Defense Programs believed that its actions
supported all aspects of the Inspector Generalms report
recommendations. Defense Programs also said that since
completion of the Inspector General's audit work, it had
reduced the number of its laboratory employees from 58 as
shown in the report to 46 as of June 15, 1996.

     We believe that the Department, based on its actions to
date, has begun to address the issues raised in this report.
However, until all of the corrective actions have been taken and
there is time to evaluate their effectiveness, it is impossible
to reach any final conclusion as to whether the concerns will be
fully remedied. A Department-wide effort will be needed if long-
term progress is to be made.

Departmental Vulnerability

     The Departmentms widespread reliance on laboratory
employees suggests that (i) laboratory contract employees are
involved in programmatic and policy arenas in which real or
perceived conflicts may exist, and that (ii) the Department may
be augmenting its federal workforce in a way which might not be
cost-effective and consistent with its staffing objectives.

     With the exception of those laboratory employees providing
unique expertise, the use of laboratory employees in program
offices may not be economical, especially given the budget
situation facing the Department. In particular, the use of
laboratory employees for clerical and administrative tasks
represents an expenditure of funds that appears questionable.
The Departmentms average cost of over $150,000 per laboratory
employee at Headquarters indicates that the Department needs to
evaluate the continuing economy of using laboratory employees.
Furthermore, in the current environment of federal personnel
cutbacks, the use of laboratory employees could be used
inappropriately to bypass personnel constraints.

                             PART III

                 MANAGEMENT AND AUDITOR COMMENTS


     The Deputy Assistant Secretary for Procurement and
Assistance Management commented on the initial draft version of
this report and concurred with the findings. Management and
auditor comments follow.

     Management Comments. Management expressed general
agreement with our findings and the need to work with the Office
of Inspector General to take appropriate actions to manage the
use of management and operating contractor employees. In
addition, management also stated that:

     "... in October 1995, the Deputy Assistant
     Secretary for Procurement and Assistance
     Management requested Headquarters program offices
     to develop an inventory of M&O employees providing
     support services to Headquarters. A report of
     that inventory has been provided to the Deputy
     Secretary. The inventory includes the employees'
     names, what duties they are performing, and how
     much they cost per month."

     Auditor Comments. As recognized in the report, the
Department has taken what we consider to be promising inital
steps to address the issues raised by the audit. However, until
management's planned actions are fully defined and implemented,
we are unable to assess their adequacy.

                                    IG Report No.   DOE/IG-0392


                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make
our reports as responsive as possible to our customers'
requirements, and therefore ask that you consider sharing
your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions
if they are applicable to you:

     1.   What additional background information about
          the selection, scheduling, scope, or
          procedures of the audit or inspection would
          have been helpful to the reader in
          understanding this report?

     2.   What additional information related to
          findings and recommendations could have been
          included in this report to assist management
          in implementing corrective actions?

     3.   What format, stylistic, or organizational changes
          might have made this report's overall message more
          clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have been
          helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your
comments.

Name ____________________________    Date_____________________

Telephone _______________________    Organization_____________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may
mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments with a
staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
